RETAIL INSTALLMENT CREDIT AGREEMENT

In this Agreement, the words “you” and “your” refer to any person who signs this Agreement, has
requested and is issued a Tiffany & Co. credit card, or is authorized to use this Tiffany & Co. credit card
account (“Account”); “we”, “us”, “our”, and “Tiffany & Co.” refer to Tiffany and Company, Fifth Avenue
and 57th Street, New York, NY 10022, and any person to whom this Account may be assigned.
1 PROMISE TO PAY/WHEN AGREEMENT IS EFFECTIVE
When you sign the Application for this Account, you will be agreeing to everything written here.
Therefore, before you sign the Application, you should read this entire Agreement, which includes the costof-credit disclosures required by Federal Law. The information you provide on the Application that
identifies you is incorporated in this Agreement by reference. This Agreement will not be effective until we
approve your Application, and then after that, only if you or someone authorized by you signs a sales slip
or otherwise charges a purchase to this Account. Also, until you or someone authorized by you uses this
Account, you will not be responsible for any use of the credit card after its loss or theft.
2 COST OF CREDIT
(a) As required by applicable law, the following chart sets forth some of the terms of the Account:

Interest Rates and Interest Charges
Annual Percentage
8% - 21%
Rates (APR) for
The
APR varies by state; please see the “State Specific Interest Rates and Interest
Purchases
Charges” table below in this account agreement.
Your due date is at least 25 days after the close of each billing cycle. We will not charge
How to Avoid Paying
you any interest on purchases if you pay your entire balance by the due date each month.
Interest on Purchases
If you are charged interest, the charge will be no less than $0.50.
Minimum Interest
Charge
To learn more about factors to consider when applying for or using a credit card, visit
For Credit Card Tips
the website of the Federal Reserve Board at
from the Federal
http://www.federalreserve.gov/creditcard.
Reserve Board

Fees
Annual Fee
Penalty Fees
•
Late Payment
•

Returned
Payment

None
$0.00 to $10.00. This fee will vary by state; please see Paragraph 5 below in this
account agreement.
$0.00 to $25.00. This fee will vary by state; please see Paragraph 5 below in this
account agreement.

State Specific Interest Rates and Interest Charges
ANNUAL PERCENTAGE RATE
If you live in:
(APR) for Purchases
California
Arkansas
Connecticut, Washington,
Michigan
Hawaii, North Carolina,
Massachusetts, South Carolina,
Minnesota, Louisiana
Florida
Nebraska, Guam

The APR is:

10% (1)
17% (2)
12% (3)
18% (4)
15% (5)
18% (4) on balances of $500 or
more;

Alabama

21% (6) on all other balances
18% (4) on balances between
$750 and $2,000;

West Virginia

21% (6) on all other balances.
18% (4) on balances of $750 or
less;

12% (3) on balances greater
than $750.
Kentucky

8%

(7) on balances of $15,000
and under;

21% (6) on balances above
$15,000.

Grace Period for repayment of balances

All other states, Puerto Rico
and the District of Columbia
30 days on average

Method of computing the balance
Annual Fee
Minimum finance charge

Average daily balance (excluding current transactions)
None
If you live in:
The minimum finance charge is:
Hawaii, Arkansas,
District of Columbia,
Maryland, Nebraska,
Michigan, North Carolina,
South Carolina, Arizona, and
Guam

21% (6)

None

All other states
$0.50
(1) Monthly Periodic Rate of 0.833%
(2) Monthly Periodic Rate of 1.4166%
(3) Monthly Periodic Rate of 1.000%
(4) Monthly Periodic Rate of 1.500%
(5) Monthly Periodic Rate of 1.250%
(6) Monthly Periodic Rate of 1.750%
(7) Monthly Periodic Rate of 0.666%

How We Will Calculate Your Balance: We use a method called “average daily balance (excluding new
purchases).” See Paragraph 3 of this account agreement for more details.
Your Billing Rights: Information concerning your rights to dispute transactions and how to exercise those
right is provided in the “Your Billing Rights” section below the signature line in this account agreement.
(b) Regular Terms: Unless the “No Interest Charge Option” is selected, no Interest Charge will be imposed
in any monthly billing period (1) in which there is no balance at the beginning of the billing period (the
“Previous Balance”) or (2) in which payments received and credits issued within one month after the
Billing Closing Date (the “Payment Due Date”) equal or exceed the Previous Balance. If we do not receive
the full amount due (the “New Balance”) by the Payment Due Date, a Interest Charge will be computed on
the outstanding balance from month to month by applying the applicable Monthly Periodic Rate set forth
above to the balance explained in paragraph 3 below.
(c) No Interest Charge Option: If any item is designated as “Interest Free” on the sales invoice or otherwise
at the point of sale, you will only be required to pay a fixed percentage of the amount of said item at the
time of sale, with the remaining balance to be paid in equal monthly installments, the number of which
shall be set forth in the sales invoice. The amount of each such installment will be included in the
Minimum Payment Due figure on each statement. No Interest Charge will be imposed on the balance
attributable to that purchase as long as the Minimum Payment Due shown on your monthly billing
statement is paid in full by the Payment Due Date shown on that statement. If, in any billing cycle, the
Minimum Payment Due is not paid in full and when due, a Interest Charge will begin to accrue and will be
imposed on the entire balance in your Account under our Regular Terms, beginning in the next billing
cycle.
3 METHOD OF COMPUTING INTEREST CHARGE
We figure the Interest Charge on your Account by applying the monthly Periodic Rate to the
“Average Daily Balance” of your Account (excluding current transactions). To get the “Average Daily
Balance” we take the beginning balance of your Account each day and subtract any payments or credits, returned check fees, late fees, and any unpaid Interest Charges. We do not add in any new purchases. This
gives us the daily balance. Then, we add all the daily balances for the billing cycle together and divide the
total by the number of days in the billing cycle. This gives us the “Average Daily Balance”.
4 MINIMUM MONTHLY PAYMENTS
You agree to pay at least the Minimum Payment Due shown on your monthly statement on or before
the Payment Due Date shown on that statement. Your Minimum Payment Due will be four percent (4.0%)
of the New Balance, but not less than $20, or the entire New Balance if the New Balance is less than $20,
except that, (i) if you live in Vermont, the minimum monthly payment will be not less than 1/48 of the
balance after the last advance in the billing period, (ii) if you live in California, the minimum monthly
payment will be 10% of the New Balance, and (iii) if you live in West Virginia, your Minimum Payment
Due will be 1/12 of 25% of the New Balance. If you live in South Carolina, 40% of your payment will be
applied to outstanding principal. The Minimum Payment Due will include the entire amount of any check
processing fee and any past due amount. If any item is designated as an “Interest Free” on the sales invoice
or otherwise at the point of sale, the minimum monthly payment amount for that item will be a percentage
of its total cash price (or multiple items that qualify for this option), and the minimum monthly payment
amount for this option will be added to the regular minimum monthly payment amount, if any, to arrive at
the total Minimum Payment Due. All payments must be made in U.S. dollars by check drawn on a U.S.
bank. You may pay more than the Minimum Payment Due in any month but if you do, and there is a
balance due, you must continue to make minimum payments in future months.
5 LATE FEE; RETURNED CHECK FEE
(a) If any payment is received by us more than ten (10) days after the Payment Due Date for such payment,
you may be required to pay a "Late Payment Fee" of $10.00, subject to the following exceptions (see table
below):

If you live in:

The late fee will be:

Indiana, Nebraska, South Carolina,
Minnesota
Kansas, Missouri, Arizona

$5.00

And/or the number of days before the fee
is assessed will be:

$5.00, where the late
payment is $25.00 or less

North Carolina

$5.00, if the balance of the
Account is less than $100.00

West Virginia, Virginia

5%, not to exceed $10.00

Massachusetts

10%, not to exceed $10.00

New Mexico, Tennessee, South
Dakota, New Hampshire, Hawaii,
Delaware, Oklahoma, Connecticut,
Wyoming, Guam

No late fee

Maine, Arkansas

$10

15

Texas

$10

21

15

(b) If any check sent to us in payment on your Account is drawn on a foreign bank or is returned to us
unpaid by the bank, to the extent permitted by applicable law, we may charge you a fee of $25.00 to cover
our processing costs and you agree that we may add such fee to the balance due on your Account, subject to
the following exceptions (see table below):

If you live in:
Iowa, New Jersey, Utah
Texas, California
Arizona
Maine, South Carolina, North Carolina,
Michigan, Hawaii, Florida, Illinois,
Connecticut, Delaware, District of
Columbia, Nebraska, Massachusetts,
Minnesota, Pennsylvania, New Hampshire,
New Mexico, North Dakota, South Dakota,
West Virginia, Rhode Island, Washington,
Wyoming, Puerto Rico, Guam

The returned check fee will be:
$20.00
$15.00
$10.00
No returned check fee.

6 DEFAULT/COLLECTION COSTS
If you fail to pay any minimum monthly payment when due, if you declare bankruptcy, or if you die,
it will be a default, and subject to any right you may have under state law to receive notice of and to cure
such default, we may declare the entire unpaid balance in the Account due and payable. If the Account is
referred to an attorney who is not our salaried employee and we prevail in a suit against you to collect the
amount you owe, in addition to the full amount owed and any court costs, you agree to pay our reasonable
attorneys’ fees. No attorneys’ fees will be imposed in any state, or in any amount, where not permitted by
law. We will pay your reasonable attorneys’ fees if you prevail in a suit we bring against you under this
Agreement. As required by law, you are hereby notified that a negative credit report reflecting on
your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of
your credit obligations.

7 CANCELING OR LIMITING YOUR CREDIT
Unless otherwise provided by applicable law, we have the right at any time to limit or terminate the
use of your Account without giving you notice in advance. All credit cards we issue remain our property
and, if requested, you agree to return any credit card issued to you. You agree to notify us promptly (call us
toll free at Tel. No. 18008271396) if any credit card we issue to you is lost or stolen.
8 CHANGE IN THIS AGREEMENT
We may change any term of this Agreement, including the rate of Interest Charge, by furnishing you
notice of the change to the extent required by applicable law. If permitted by applicable law, any new terms
may, at our option, be applied to any balance existing in the Account at the time of the change, as well as to
any subsequent transactions.
9 CREDIT INVESTIGATION
You authorize us to investigate your credit history by obtaining consumer reports and by making
direct inquiries of businesses where you have accounts and where you work. We may request a consumer
report from consumer reporting agencies in considering your application for this Account and later in connection with an update, renewal, or extension of credit. Upon your request we will tell you whether or not a
consumer report was requested and the name and address of any consumer reporting agency that furnished
the report. You also authorize us to report your performance under this Agreement to credit bureaus and
others who may properly receive such information.
10 DISPUTED AMOUNTS
All written communications concerning disputed amounts, including any check or other payment
instrument in an amount less than the full amount due that you send to us marked “paid in full” you tender
with other conditions or limitations, or you otherwise tender as full satisfaction of a disputed amount, must
be sent to us at the address for billing inquiries shown on the billing statement. For important information
regarding your right to dispute billing errors under Federal Law, see the “Your Billing Rights Notice” that
accompanies your copy of this Agreement.
11 MARKETING INFORMATION
To the extent permitted by applicable law, you give us and any holder of this Agreement permission
to furnish information about you (usually only your name, address and other identifying data) to other
persons who may use that information to solicit you for products or services. You can request that we
discontinue furnishing this information by calling us toll free at 1-800-827-1396 or by writing us at Tiffany
& Co., P.O. Box 6150, Parsippany, New Jersey 07054-9693.
12 DISPUTE RESOLUTION
The exclusive means of resolving any controversy or claim arising out of or relating to this Agreement
or any related purchase contract, or the breach, termination or invalidity of any of the foregoing shall be in
the applicable state and federal courts. The parties hereby waive the right to punitive or exemplary damages
but shall have the right to reasonable attorneys’ fees and other court related costs awardable to the
prevailing party.
13 CHANGE OF ADDRESS AND GOVERNING LAW
This Agreement is governed by the law of your state of residence when this Account was opened. You
agree to notify us promptly in writing if you move. Until we receive written notice of your new address, we
will continue to send monthly statements and other notices to the address you gave on the Application for
this Account. Once we receive written notice that you have moved to another state, the terms of this
Agreement that are applicable to your new state of residence will apply to the entire balance in your
Account.
Notice to Maryland Residents: This Account is governed by Subtitle 9, Title 12 of the Maryland
Commercial Law Article.
Notice to Texas Residents: The Interest Charge rate shown above is authorized under the Market
Competitive Rate ceiling in effect under Tex. Rev. Civil. Stat. Article 50966.03. To contact Tiffany & Co.
about this account, call us toll free at 18008271396. This contract is subject in whole or in part to Texas
law which is enforced by the Consumer Credit Commissioner, 2601 North Lamar Boulevard, Austin, TX
787054207. Phone (512) 4791285 or 18005381579. Contact the Commissioner relative to any inquiries or
complaints.

NOTICE: ANY HOLDER OF THIS CONSUMER CREDIT CONTRACT IS SUBJECT TO ALL
CLAIMS AND DEFENSES WHICH THE DEBTOR COULD ASSERT AGAINST THE SELLER
OF GOODS OR SERVICES OBTAINED PURSUANT HERETO OR WITH THE PROCEEDS
HEREOF. RECOVERY HEREUNDER BY THE DEBTOR SHALL NOT EXCEED AMOUNTS
PAID BY THE DEBTOR HEREUNDER.
Notice: See reverse side for important information regarding your rights to dispute billing errors.
BY SIGNING THE ACCOMPANYING ACCOUNT REQUEST FORM, YOU ACKNOWLEDGE
RECEIPT OF A COPY OF THIS RETAIL INSTALLMENT CREDIT AGREEMENT.
TIFFANY & CO.
Fifth Avenue and 57th Street
New York, NY 10022
By:

Vice President – Treasury
DISCLOSURE REQUIRED BY FEDERAL LAW.
YOUR BILLING RIGHTS. KEEP THIS NOTICE FOR FUTURE USE.
Your Billing Rights: Keep This Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit billing Act.
What To Do If You Think You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Tiffany & Co
15 Sylvan Way
Parsippany, NJ 07054-9693
In your letter, give us the following information:
•
Account information: Your name and account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of Problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us within 60 days after the error appeared on your statement.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
While we investigate whether or not there has been an error, the following are true:
•
We cannot try to collect the amount in question, or report you as delinquent on that
amount.
•
The charge in question may remain on your statement, and we may continue to charge
you interest on that amount. But, if we determine that we made a mistake, you will not have to pay the
amount in question or any interest or other fees related to that amount.
•
While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.
The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note: Neither of these are

necessary if your purchase was based on an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2.
You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not qualify.
3.
You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at:
Tiffany & Co
15 Sylvan Way
Parsippany, NJ 07054-9693
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and
you do not pay we may report you as delinquent.

ACCOUNT AGREEMENT

727 Fifth Avenue, New York, NY 10022
(212) 755-8000
For Tiffany store location or inquires, call 1-800-827-1396.

